No.

IN THE
SUPREME COURT OF THE UNITED STATES

MICHAEL WILLIAMSON

PETITIONER

VS.
HAROLD MAY — RESPONDENT(S)
PROOF OF SERVICE
I, Michael Williamson, do swear or declare that on August
11, 2020, as required by Supreme Court Rule 29 I have served
the enclosed motion for leave to proceed in forma pauperis and
PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party's counsel, and on every other person
required to be served, by depositing an envelope containing
the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by
delivery to a third-party commercial carrier for delivery within
3 calendear days.
The names and addresses of those served are as follows:
Counsel for Harold May, Warden of Richland Correctional
Institution, Jerri Fonaught, Ohio Attorney General at 150 East
Gay St • f Columbus, Ohio 43215.
I, Michael Williamson, declare under penalty of perjury
that the following is true and correct.
Executed on August 11, 2020

~»2-

